IN THE
SUPREME COURT OF THE UNITED STATES

JAMES ALLEN MINYARD,

Petitioner,
v.

STATE OF NORTH CAROLINA,
Respondent.

PROOF OF SERVICE

I, John J. Korzen, counsel for Petitioner, do swear that on this 31st day of
August 2020, as required by Supreme Court Rule 29, I served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
WRIT OF CERTIORARI on counsel for Respondent (the only party required to be
served) by depositing an envelope containing the above documents in the United
States mail properly addressed to them and with first-class postage prepaid. The
names and addresses of those served are:

Joseph L. Hyde

Daniel P. O’Brien

N.C. Department of Justice
P.O. Box 629

Raleigh, NC 27602

I further swear that on this 31st day of August 2020 I also served the same
documents on the same Counsel for Respondent by email addressed to
jhyde@ncdoj.gov and to dobrien@ncdoj.gov.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 31, 2020.

Jo) 01
